                                   SOCIAL SECURITY
MEMORANDUM

Date:   August 5, 2005                                                             Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)



        The attached final report presents the results of our audit. Our objective was to
        determine why Numberholders’ earnings records indicate work activity prior to their
        enumeration by the Social Security Administration.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                       S
                                                       Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



       REPORTED EARNINGS
    PRIOR TO THE ISSUANCE OF A
     SOCIAL SECURTY NUMBER

  August 2005       A-03-04-14037




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                Executive Summary
OBJECTIVE
Our objective was to determine why Numberholders’ earnings records indicate work
activity prior to their enumeration by the Social Security Administration (SSA).

BACKGROUND
SSA provides Old Age, Survivors and Disability Insurance (Title II) benefits to
individuals based on their lifetime earnings reported under a valid Social Security
number (SSN). These earnings determine whether an individual has enough quarters
of coverage, or work credits, to potentially qualify for SSA benefits. SSA issues a Social
Security card displaying the name and SSN of the Numberholder, as well as the
individual’s right to work in the United States, where appropriate. While U.S. citizens
are automatically entitled to work in the economy, non-citizens do not have this same
right. Nonwork SSNs may be issued to non-citizens who meet certain requirements, but
are not authorized by the Department of Homeland Security (DHS) to work in the United
States.

RESULTS OF REVIEW

Our review found the majority of our 100 sample cases, where individuals were
enumerated in Calendar Year (CY) 2000 and had earnings posted to their records for
prior years, related to non-citizens who appeared to be: (1) working without proper
authorization prior to CY 2000 and (2) misusing SSNs. Specifically, we found that 85 of
the 100 sample cases involved non-citizens who according to available DHS records
were not authorized to work at the time they earned their wages. Nonetheless, all of
these non-citizens may be entitled to benefits related to those earnings if they meet all
factors of entitlement, even under the new restrictions put in place by Congress.
Further, we found that 63 of the 85 non-citizens appeared to have committed some form
of SSN misuse in the workplace. We also identified other issues related to the
individuals in our sample, including individuals with more than one SSN, an erroneous
wage posting to a child’s record before he was born, and data inconsistencies within
SSA’s records as well as inconsistencies between SSA’s and DHS’ records for the
same individuals.

CONCLUSION AND RECOMMENDATIONS
The Agency has been receptive to our prior audit recommendations to (1) work with
DHS to determine what information would be most beneficial to meet organizational
goals and how to establish compatibility between their data files and (2) reemphasize to
field office personnel the importance of following all policies and procedures when
enumerating individuals. The conditions identified in this report suggest that
opportunities for improvement still exist. As such, we continue to support our previous


Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)        i
recommendations recognizing that the ultimate success is contingent upon reciprocal
cooperation from partnering agencies.

Furthermore, to improve the quality of information within SSA’s records, we recommend
SSA:

    •   Discuss these potential violations of immigration laws with DHS officials to
        ensure these officials are aware of SSA’s statutory requirements regarding the
        posting of non-citizens’ earnings, regardless of the non-citizens’ authorization to
        work in the U.S. economy. This will provide DHS with additional background
        information which could assist them in performing their mission.

    •   Review and correct, as appropriate, the earnings records from our sample cases
        where an individual had more than one SSN and wages still need to be
        transferred to the appropriate account.

    •   Verify with the DHS and correct, as appropriate, the Numident records from our
        sample cases where the citizenship, work authorization, and other identifying
        information were inconsistent between SSA’s and DHS’ records.

AGENCY COMMENTS
Overall, SSA agreed with our recommendations. The full text of SSA’s comments are
included in Appendix G.




Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)           ii
                                                                    Table of Contents
                                                                                                             Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

CHARACTERISTICS OF SAMPLE CASES...........................................................3

UNAUTHORIZED EMPLOYMENT AMONG NON-CITIZENS ................................4

    •    Review of Work Authorization within SSA and DHS Records ......................5
    •    Eligibility for Social Security Benefits............................................................6

SSN MISUSE AMONG NON-CITIZENS .................................................................7

    •    Characteristics of SSN Misuse .....................................................................8

OTHER REASONS FOR PRIOR YEAR WAGES...................................................8

DATA INTEGRITY ISSUES ..................................................................................10

    •    Misclassification of Citizenship Status in SSA Records..............................10
    •    Inconsistent Data between SSA and DHS Records ...................................11

CONCLUSIONS AND RECOMMENDATIONS.....................................................12

APPENDICES

APPENDIX A – Acronyms
APPENDIX B – Section 211 of the Social Security Protection Act of 2004
APPENDIX C – Scope and Methodology
APPENDIX D – Sampling Methodology, Result and Projections
APPENDIX E – Enumeration of Non-Citizens
APPENDIX F – Country of Birth for Sample Cases
APPENDIX G – Agency Comments
APPENDIX H – OIG Contacts and Staff Acknowledgments




Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)
                                                                             Introduction
OBJECTIVE
Our objective was to determine why Numberholders’ earnings records indicate work
activity prior to their enumeration by the Social Security Administration (SSA).

BACKGROUND

SSA provides Old Age, Survivors and Disability Insurance (Title II) benefits to
individuals based on their lifetime earnings reported under a valid Social Security
number (SSN). These earnings determine whether an individual has enough quarters
of coverage, or work credits, to potentially qualify for SSA benefits. SSA issues a Social
Security card displaying the name and the SSN of the worker. While U.S. citizens are
automatically entitled to work in the economy, non-citizens do not have this same right.
Therefore, for non-citizens who are allowed to work with DHS authorization, the SSN
card will contain a legend indicating “Valid for Work Only With DHS Authorization.”1
Nonwork SSNs may be issued to non-citizens who meet certain requirements, but are
not authorized by the Department of Homeland Security (DHS) to work in the United
States. The SSN card issued to these non-citizens contains a legend indicating that the
SSN is "Not Valid for Employment."2

In our March 2003 Congressional Response Report: Social Security Administration
Benefits Related to Unauthorized Work (A-03-03-23053), we noted that current Social
Security laws and regulations seldom differentiate between U.S. citizens and non-
citizens for the purpose of determining quarters of coverage. As a result, in many cases
SSA created a work history for individuals with valid SSNs, even when some of the
earnings belonged to non-citizens who were in the United States illegally or were
otherwise unauthorized to work at the time of their earnings, but who later obtained a
valid SSN.

In March 2004, Congress placed new restrictions on the receipt of SSA benefits by non-
citizens who are not authorized to work in the United States. Under Section 211 of the
Social Security Protection Act of 2004,3 a non-citizen whose SSN was originally
assigned on or after January 1, 2004, must meet one of the following additional




1
 The absence of a legend indicates that the Numberholder is either a U.S. citizen or an alien lawfully
admitted for permanent residence.
2
    See Appendix E for a detailed description of the enumeration process for non-citizens.

3
    See Social Security Protection Act of 2004, Pub. L. No. 108-203 § 211,118 Stat. 494 (2004).



Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)                      1
requirements to be entitled to Title II and Medicare benefits based on the non-citizen’s
earnings: 4

•      The alien worker must have been issued a SSN for work purposes on or after
       January 1, 2004; or
•      The alien worker must have been admitted to the United States as a nonimmigrant
       visitor for business or as an alien crewman under specified provisions of the
       Immigration and Nationality Act.5

We discuss these provisions in greater detail in Appendix B.

SCOPE AND METHODOLOGY
To meet our objective, we selected a random sample of 100 cases from a population of
1,382 cases representing one-twentieth of the individuals who were enumerated in
Calendar Year (CY) 2000 and also had earnings posted to the Master Earnings File
(MEF)6 for Tax Year (TY) 1999 and earlier.7 We estimate that the number of cases
sharing this characteristic is approximately 27,640 Numberholders (see Appendices C
and D for more details on our methodology).




4
 SSA, Program Operations Manual System (POMS), RS 00301.102: Additional Requirements for Alien
Workers—Social Security Protection Act of 2004.
5
    See Immigration and Nationality Act, Section 101(a), (15)(B) and (D).
6
 The MEF contains all earnings data reported by employers and self-employed individuals. This data is
used to calculate the Social Security benefits due an individual with an earnings record.
7
   We extracted these cases from 1 segment of 20 segments in SSA’s Numident file. The Numident is a
record of identifying information at the time of application (such as name, date of birth, date of death,
citizenship status, etc.) provided by the applicant on his or her Application for a Social Security Number
(Form SS-5) for an original SSN and subsequent applications for replacement SSN cards. The Numident
files are separated into 20 segments based on the last 2 digits of the SSN. Since these last digits are not
specific to a region or period of issuance, each segment should be representative of the entire file.



Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)                       2
                                                     Results of Review
Our review found the majority of our 100 sample cases, where individuals were
enumerated in Calendar Year (CY) 2000 and had earnings posted to their MEF records
for prior years, related to non-citizens who appeared to be: (1) working without proper
authorization prior to CY 2000 and (2) misusing SSNs. Of these sample cases, we
found that 91 were non-citizens of which 85 appeared to lack an authorization to work at
the time they earned their wages based on our review of SSA records and available
DHS documentation. SSA records showed that these 85 non-citizens earned
approximately $3.2 million in unauthorized wages and self-employment income going as
far back as 1987. All of these non-citizens may be entitled to benefits related to those
earnings if they meet all factors of entitlement, even under the new restrictions put in
place by Congress. Further, we found that 63 of the 85 non-citizens appeared to have
committed some form of SSN misuse in the workplace (see Table 1 for a summary of
these findings). We also identified other issues related to the individuals, including
individuals with more than one SSN, an erroneous wage posting, and data
inconsistencies within SSA’s records as well as inconsistencies between SSA’s and
DHS’ records for the same individuals.

           Table 1: Summary of Findings for Non-Citizen Sample Cases
                           Employment Status Per DHS
  Authorized to Work                                        6
  Not Authorized to Work                                   85
                      Non-Citizen Total                              91
                               Potential SSN Misuse
  SSN Misuse Detected
  --Authorized to Work                            3
  --Not Authorized to Work                       60
                              Sub-total                    63
  No SSN Misuse Detected
  --Authorized to Work                            3
  --Not Authorized to Work                       25
                              Sub-total                    28
                      Non-Citizen Total                              91

CHARACTERISTICS OF SAMPLE CASES

For the 100 sample cases, we identified approximately $5.3 million in wages and self-
employment income that was posted to the Numberholders’ MEF records for TYs
1999 and earlier, which was prior to their enumeration in CY 2000. The earnings were
reported between TYs 1956 and 1999, with the highest lifetime earnings being about
$1.2 million for one individual. Further, the Numberholders ranged in age from




Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)     3
1 month8 to 69-years old at the time of their enumeration in CY 2000. SSA posted
these earnings to the Numberholders’ MEF9 records by manually reinstating the
earnings from the SSA’s Earnings Suspense File (ESF),10 adding the earnings based on
evidence provided by the Numberholders, or posting the earnings through the annual
wage reporting process.

Of the 91 non-citizens in our sample, 49 (or 54 percent) were born in either Mexico or
Honduras, with the remainder coming from 26 different countries (see Appendix F for a
complete listing of the places of birth). These non-citizens earned about $3.3 million in
wages prior to enumeration in CY 2000. Based upon these sample cases, we estimate
that SSA enumerated 25,160 non-citizens in CY 2000 who afterwards had prior year
earnings posted to their MEF records (see Appendix D for our estimation methodology).
The remaining nine Numberholders were either born in the United States (seven
Numberholders) or were naturalized citizens (two Numberholders).11

UNAUTHORIZED EMPLOYMENT AMONG NON-CITIZENS

Our analysis of the 100 sample cases found that 85 Numberholders appeared to be
non-citizens who lacked authorization to work in the U.S. economy prior to their
enumeration in CY 2000 (see Figure 1).12 Based on our review of SSA records and
available DHS documentation, these non-citizens may have violated the Immigration
and Naturalization Act, which requires certain non-citizens to obtain an authorization for
employment from DHS.13 In terms of non-citizens enumerated in CY 2000, we estimate
that the 85 sample items represent approximately 23,500 potential violations of
immigration laws prior to SSA’s enumeration of these non-citizens (see Appendix D for
our estimation methodology).




8
    This case relates to an erroneous posting to a child’s record and is discussed in detail later in this report.
9
 The MEF contains all earnings data reported by employers and self-employed individuals. This data is
used to calculate the Social Security benefits due an individual with an earnings record.
10
   We found that 64 of the non-citizens had earnings reinstated from the ESF. The ESF is a repository of
unmatched wage items. As of October 2004, SSA’s ESF contained approximately 246 million wage items
totaling about $463 billion in wages related to TYs 1937 through 2002 that could not be posted to
individual earnings records.
11
     The two naturalized citizens were born in Columbia and Mexico.
12
 According to DHS records, the six remaining non-citizens were authorized to work in 1999 and earlier
when they earned their wages, but had not been enumerated until CY 2000.
13
     Control of Employment of Aliens, 8 C.F.R. § 274a.



Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)                             4
                             Figure 1: Unauthorized Employment
                                     Prior to Enumeration
                                     (Sample of 100 Cases)

                                       Non-Citizens
                                       Authorized to                      U.S. Citizens
                                          Work                                 (9)
                                           (6)




            Non-Citizens
            Unauthorized
              to Work
                (85)



Review of Work Authorization within SSA and DHS Records

We found that the 85 non-citizens appeared to lack authorization to work in the
United States prior to CY 2000 based on our review of SSA’s and DHS’ records.14 To
determine if DHS had in fact authorized the non-citizens to work, we provided DHS with
the identifying information (full name, date of birth, and place of birth) the non-citizens
submitted to SSA at the time they were enumerated.15 Based on DHS’ Central Index
System (CIS)16 records, it appears that 71 of the 85 non-citizens did not receive
employment authorization until CY 2000 or later. For example, in one case the CIS
record indicated that a non-citizen had been in the United States since 1990 and was
initially denied an employment authorization in 1994. In October 2001, DHS reversed
its decision and granted the non-citizen an employment authorization at that time.
Nonetheless, the non-citizen worked without authorization from 1990 until 1999 for
several employers earning nearly $170,000 in wages.


14
 We reviewed the SSA’s Numident File to determine the work authorization status of the
Numberholders.
15
  This information was taken from SSA’s records, including the Agency’s Numident file and copies of the
non-citizens’ Forms SS-5.
16
  DHS provided us with records from CIS, which is DHS’ main automated information system that
contains data on lawful permanent residents, naturalized citizens, violators of immigration laws, aliens
with employment authorization document information, and others for whom DHS has opened files on or
whom it has a special interest. We did not perform an independent assessment of the reliability of the
records provided by DHS.



Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)                        5
For the remaining 14 non-citizens, DHS could not provide any evidence that these
individuals existed in their records. It is possible that the identifying information
provided to SSA by the non-citizen did not match information contained in CIS. We
discuss data integrity issues between SSA and DHS later in this report. Further, it may
represent non-citizens who presented invalid/inappropriate DHS evidence to SSA when
they were enumerated. In our August 2002 audit, we highlighted problems with
fraudulent documents presented by non-citizens as part of the CY 2000 enumeration
process.17 We referred these 14 cases to our Office of Investigations (OI) for review.
OI reviewed the referrals and determined that they did not warrant further investigation.
The cases were then sent to SSA for any appropriate action by the Agency.

Overall, the 85 non-citizens earned approximately $3.2 million in unauthorized wages
and self-employment income over a 12-year period, beginning in TY 1987 as shown in
Table 2. Although a majority (66 sample cases) of the non-citizens earned $50,000 or
less in unauthorized wages during this period, there were 10 non-citizens who earned
over $100,000 in unauthorized wages.

                  Table 2: Summary of Total Earnings for Non-Citizens
                     Unauthorized to Work (Tax Years 1987 to 1999)
           Range of           Number of
     Unauthorized Wages Sample Cases           Percentage         Total Earnings
         $1 -- $10,000            27              32%                   $113,953
      $10,001 -- $50,000          39              46%                  1,002,732
      $50,001 -- 100,000           9              11%                   $675,182
     $100,001 -- $200,000          8               9%                 $1,000,391
     Greater than $200,001         2               2%                   $411,262
              Total               85             100%                 $3,203,520

Eligibility for Social Security Benefits

All of the non-citizens in our sample may be able to use their unauthorized wages to
acquire future Title II benefits, provided that all eligibility requirements are met, even
under the more restrictive provisions recently passed by Congress. The Social Security
Act, as amended by Public Law 108-203 § 211, now prohibits the payment of Title II
benefits based on the earnings of any individual who is not a U.S. citizen or national,
and has been enumerated for the first time after January 1, 2004, unless the non-citizen
(1) has been issued an SSN to work in the United States on or after this date or (2) was
admitted to the United States at any time as a nonimmigrant visitor for business or as a
crewman under specified provisions of the Immigration and Nationality Act. SSA issued
SSNs to all 85 non-citizens prior to January 1, 2004, based on DHS evidence the non-




17
  SSA OIG, The Social Security Administration Continues Assigning Original Social Security Numbers to
Foreign-Born Individuals Who Present Invalid Evidentiary Documents (A-08-02-12056), August 2002.



Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)                 6
citizens provided;18 therefore, SSA can consider their unauthorized wages to qualify
them and their family members for future Title II benefits.

In fact, for 2 of the 85 sample cases, the non-citizens and their family members were
receiving disability and retirements benefits that were based upon the unauthorized
wages. In both cases, the non-citizens and their family members filed for benefits in
2001, a year after the non-citizens were enumerated. In total, the non-citizens and their
family members received over $50,000 in benefits in CYs 2001 to 2004. If the
unauthorized wages were not used to determine their quarters of coverage, the two
non-citizens may not have been eligible for Title II benefits at the time they filed a claim.

SSN MISUSE AMONG NON-CITIZENS

For 63 of the 91 non-citizens in our sample cases, the Numberholders appeared to have
committed some form of SSN misuse in the workplace.19 According to the Social
Security Act, a person commits SSN misuse when they:

      “…willfully, knowingly, and with intent to deceive the Commissioner of Social
      Security as to his true identity (or the true identity of any other person) furnishes or
      causes to be furnished false information to the Commissioner of Social Security.…”20

We found that among the 63 noncitizens who committed potential SSN misuse, 60 of
these non-citizens were not authorized to work in the United States prior to their
enumeration in CY 2000 (see Figure 2). Therefore, we estimate that the 60 sample
cases represent approximately 16,580 cases of potential SSN misuse related to non-
citizens enumerated in CY 2000 who were not authorized to work in the U.S. economy
and had prior year wages posted to their records (see Appendix D for our estimation
methodology). The remaining three non-citizens were authorized to work in 1999 and
earlier, but misused valid and invalid SSNs to work. We estimate this group represents
approximately 820 SSN misuse cases involving non-citizens enumerated in CY
2000 with prior year wages posted to their MEF records who were authorized to work.
The misuse of SSNs by non-citizens continues to burden SSA as it attempts to resolve
wage-reporting problems. SSA senior staff has acknowledged that the intentional
misuse of SSNs by non-citizens not authorized to work is a major contributor to the
growth of the ESF.21 We referred the 63 potential SSN misuse cases to OI for review.
OI reviewed the referrals and determined that they did not warrant further investigation.

18
  As noted earlier, in some cases the non-citizens may have presented fraudulent evidence to SSA
personnel at the time of enumeration.
19
  We also found potential SSN misuse among one U.S. citizen in our sample. This Numberholder was a
naturalized citizen who appeared to have committed SSN misuse by using another person’s SSN to earn
self-employment income over a 12-year period, beginning in TY 1988.
20
     42 U.S.C. § 408(a)(6).
21
  SSA OIG, Congressional Response Report: Status of the Social Security Administration’s Earning
Suspense File (A-03-03-23038), November 2002.


Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)                7
The cases were then sent to SSA for any appropriate action by the Agency.


                  Figure 2: Potential SSN Misuse Among Non-Citizens
                                    (63 Sample Cases)

                                         3 Cases


                                                                         Non-Citizens, Authorized
                                                                         to Work
                                                                         Non-Citizens,
                                                                         Unauthorized to Work


                           60 Cases


Characteristics of SSN Misuse

The 63 Numberholders committed potential SSN misuse by either using valid SSNs
assigned to other Numberholders and/or invalid SSNs (a number that has not been
issued by SSA). Specifically, we found the following:

     •   35 misused valid SSNs;
     •   19 used invalid SSNs;22 and
     •   9 used multiple SSNs (valid and invalid).

For example in one case, we found an individual who used four separate SSNs to earn
about $138,000 in wages in TYs 1994 to 1999. SSA records showed that this individual
used two SSNs that were assigned to someone else and two SSNs that were never
issued by SSA. In all cases where individuals misused valid SSNs, we did not find that
earnings records of the Numberholders assigned the SSNs were affected by the misuse
because the wages were placed into the SSA’s ESF. Nonetheless, SSN misuse can be
very harmful to innocent individuals as it could possibly lead to identity theft.

OTHER REASONS FOR PRIOR YEAR WAGES

In 34 of the 100 sample cases, we reviewed SSA records and found the following:

     •   In 27 cases, the Numberholders (26 non-citizens and 1 U.S. citizen) filed tax
         returns with the Internal Revenue Service to report over $348,000 in self-
         employment income for TYs 1997 to 1999 using the SSN assigned to them in

22
   Three of these invalid numbers resembled an Individual Taxpayer Identification Number (ITIN). An ITIN
is a 9-digit number that begins with a “9” and is issued by the Internal Revenue Service to individuals who
need tax identification numbers for tax purposes and who otherwise do not meet the requirements for
being assigned an SSN.


Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)                      8
           CY 2000. The Numberholders reported the self-employment income before the
           expiration of the statute of limitations for correcting earnings record. Under the
           Social Security Act, an earnings record can be corrected any time up to 3 years,
           3 months, and 15 days after the year in which the wages were paid or the self-
           employment income was derived and thereafter for certain specified reasons.23
           Since the Numberholders used a valid work SSN to report self-employment
           income for prior years, the income was posted to their MEF records as part of the
           annual wage reporting process.

      •    In five cases with about $555,000 in prior year wages, the Numberholders were
           assigned or used more than one SSN. In three cases, the Numberholders were
           assigned at least two SSNs, which were cross-referenced in SSA’s records.
           SSA transferred the prior year wages from the original account to the new
           account assigned in CY 2000. We discussed these cases with SSA staff and
           they could not explain why the Numberholders were assigned the second SSN.
           For the two remaining cases, the Numberholders appeared to have shared a
           SSN with someone else with a similar name.24 SSA assigned them a new SSN
           in CY 2000 and added their prior year wages to the new earnings record.
           However, we found that SSA did not transfer all of the Numberholder’s wages
           from the other account. Therefore, the other Numberholders identified could
           potentially receive benefits based on those wages. We discussed these cases
           with SSA staff and they agreed the wages should be transferred to the new
           account. We referred the two cases to SSA for appropriate action.

      •    In one case, it appears SSA erroneously posted the wages to a Numberholder’s
           record. A child born in 1999 had $900 in wages posted to his MEF record for
           TYs 1956 and 1957. SSA’s SWEEP25 edit erroneously posted these wages to
           the child’s record since the child and the wage earner shared similar surnames.
           It appears that SSA’s electronic edits did not verify the date of birth of the
           Numberholder before wages were reinstated to their MEF record. We referred
           this case to SSA systems staff and they manually removed the wages from the
           child’s earnings record and moved them to the ESF.26 Further, they stated that in
           January 2004 a systems change was implemented to prevent the posting of
           wages prior to a Numberholder’s date of birth for wages reported to SSA in
           TY 2003 and later. However, SSA staff stated they do not currently have plans

23
     Sections 205 (c)(4) and (5) of the Social Security Act.
24
  We reviewed similar situations in our earlier audit, Social Security Numbers with More Than One Owner
(A-03-03-23003), June 2004.
25
  SWEEP is an electronic operation that periodically uses SSA’s latest system enhancements and
validation rules, including the more than 20 routine edits used on incoming wages, to remove items from
the ESF and reinstate them to wage earners’ MEF records.
26
  We reviewed all 1,382 Numberholders from the 1 segment of the Numident and found additional
occurrences of posting of earnings prior to the Numberholders’ date of birth. We referred these cases to
SSA systems staff.


Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)                        9
         to implement a systems change to correct pre-TY 2003 earnings postings to
         individuals' MEF records prior to their birth since this could be a time-consuming
         process and potentially create new problems.27

     •   In one case, SSA reconstructed the Numberholder’s earnings record, which
         covered a 43-year period from 1957 to 1999. The Numberholder earned over
         $1.2 million during this period. Many of these wages were placed in the ESF
         because of a misspelling of the Numberholder’s last name, but the reported SSN
         was identical to the SSN assigned in CY 2000. According to SSA staff, the
         Numberholder’s original Numident file, which was established in 1957, was lost
         as a result of a coding error. Therefore, SSA had to reestablish a Numident File
         for the Numberholder in CY 2000 and then reconstruct the earnings record. We
         were able to locate an earlier Form SS-5 further indicating this individual was
         assigned a valid SSN in 1957.

DATA INTEGRITY ISSUES

In our review of the 100 sample cases, we identified several data integrity problems
within SSA’s records, as well as between SSA’s and DHS’ records.

Misclassification of Citizenship Status in SSA Records

We found the citizenship and work authorization status for 6 of the 91 non-citizens in
our sample were not classified properly within SSA records. In two cases, SSA
classified the two Numberholders as U.S. citizens at the time they were enumerated,
while their Form SS-5s clearly indicated that both were non-citizens. According to DHS
records, one of the Numberholders became a legal permanent resident in May 2004
and the other was appealing a voluntary departure order issued by DHS. Further, we
identified four cases where SSA classified non-citizens as authorized to work, but DHS’
records indicated that these individuals did not receive an authorization to work until at
least a year after they were enumerated. We referred the six cases to SSA for
resolution.

In our August 2004 report, we noted the risks of improperly enumerating non-citizens
and recommended that SSA reemphasize to field office personnel the importance of
following all policies and procedures when enumerating individuals.28 If field office
personnel follow the policies and procedures, especially the procedure to verify through

27
  Although SSA does not plan to fix the items identified on the MEF at this time, SSA staff also noted that
during the claims process SSA’s Modernized Claims System identifies items with earnings before birth for
manual review. These items are then evaluated to ensure the proper crediting of the earnings to the
individual’s MEF or placed in the ESF if they were posted to the individual’s earnings record erroneously.
However, this correction could take place decades after the erroneous posting and, in the meantime, the
erroneous posted wages are not available should the true earner seek these earnings for his/her own
benefit calculation.
28
 SSA OIG, Compliance with Policies and Procedures When Processing Non-citizen Social Security
Number Applications at Foreign Service Posts (A-08-04-14060), August 2004.


Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)                     10
DHS the immigration status and work authorization of all non-citizens, the risk of
misclassifying these individuals should be minimized.29

Inconsistent Data between SSA and DHS Records

In our comparison of SSA and DHS records for the 91 sample cases involving non-
citizens, we identified 37 cases where the SSN, name, and date of birth of the non-
citizens were inconsistent between the two agencies (see Figure 3). The majority of the
inconsistencies (28 cases) related to name mismatches (i.e. misspellings). In addition,
we identified six cases where the SSNs included in DHS’ records did not match the
SSNs assigned to the non-citizens.30 Two of these SSNs actually belong to U.S.
citizens who were not associated with the non-citizens. We also found three cases
where SSA and DHS had different dates of birth for the same individual. Inconsistent
data between SSA and DHS could potentially lead to payment errors as SSA relies on
DHS’ data to verify the immigration and work authorization for non-citizens. Further,
inconsistent data could potentially impede further data sharing between the two
agencies. In our September 2003 report, we noted the need for SSA and DHS to work
together to resolve data compatibility problems.31 We referred these 37 cases to SSA
for further review.

                     Figure 3: Inconsistent Data between SSA and DHS
                                     (37 Sample Cases)
                                      SSN
                                    Mismatch
                                       (6)

                      Date of Birth
                       Mismatch
                          (3)


                                                                       Name
                                                                    Mismatch (28)




29
     See Appendix E for SSA’s enumeration procedures for non-citizens.
30
  As we note in Appendix E, DHS tracks non-citizens using alien registration numbers or admission
numbers. Although we found SSNs were included in DHS’ data system, they are not “required” to
capture SSNs issued to non-citizens.
31
  SSA OIG, Profile of the Social Security Administration’s Non-Work Alien File (A-14-03-23071),
September 2003.


Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)                 11
                                                    Conclusions and
                                                   Recommendations
Under the existing statutory framework, SSA must pay benefits to individuals who have
engaged in unauthorized employment under U.S. immigration law. While SSA is
adhering to the Social Security Act in terms of recording these wages and paying
benefits to such persons, these statutory requirements are benefiting non-citizens
whose work activities are not consistent with U.S. immigration laws. In some specific
cases, this practice may also be inconsistent with provisions to limit SSN misuse, such
as certain penalties in the Social Security Act. Furthermore, recent laws to tighten
controls over unauthorized work will have no effect on the non-citizens in our sample
since all the non-citizens received their SSN prior to January 1, 2004.

As indicated in our prior audits the Agency has been receptive to our prior
recommendations to (1) work with DHS to determine what information would be most
beneficial to meet organizational goals and how to establish compatibility between their
data files and (2) reemphasize to field office personnel the importance of following all
policies and procedures when enumerating individuals. The conditions identified in this
report suggest that opportunities for improvement still exist. As such, we continue to
support our previous recommendations recognizing that the ultimate success is
contingent upon reciprocal cooperation from other agencies. In addition, we
recommend SSA:

   1. Discuss these potential violations of immigration laws with DHS officials to
      ensure these officials are aware of statutory requirements regarding the posting
      of non-citizens’ earnings, regardless of the non-citizens’ authorization to work in
      the U.S. economy. This will provide DHS with additional background information
      which could assist them in performing their mission.

   2. Review and correct, as appropriate, the earnings records from our sample cases
      where an individual had more than one SSN and wages still need to be
      transferred to the appropriate account.

   3. Verify with the DHS and correct, as appropriate, the Numident records from our
      sample cases where the citizenship, work authorization, and other identifying
      information were inconsistent between SSA’s and DHS’ records.

AGENCY COMMENTS

Overall, SSA agreed with our recommendations. The full text of SSA’s comments are
included in Appendix G.




Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)    12
                                            Appendices




Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)
                                                                           Appendix A

Acronyms
 ASVI              Alien Status Verification Index
 CFR               Code of Federal Regulations
 CIS               Central Index System
 CY                Calendar Year
 DHS               Department of Homeland Security
 EOIR              Executive Office for Immigration Review
 ESF               Earnings Suspense File
 ESRD              End-Stage Renal Disease
 FO                Field Office
 ITIN              Individual Taxpayer Identification Number
 LOSISV            Los Angeles Immigration Status Verification Unit
 MEF               Master Earnings File
 MES               Modernized Enumeration System
 OI                Office of Investigations
 OIG               Office of the Inspector General
 POMS              Program Operations Manual System
 Pub. L.           Public Law
 SAVE              Systematic Alien Verification for Entitlements
 SSA               Social Security Administration
 SSN               Social Security number
 TY                Tax Year
 U.S.C.            United States Code
 FORMS
 Form G-845        Document Verification Request
 Form I-20         Certificate of Eligibility for Nonimmigrant Student Status
 Form I-551        Permanent Resident Card
 Form SS-5         Application for a Social Security Card



Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)
                                                                           Appendix B

Section 211 of the Social Security Protection
Act of 2004
The Social Security Protection Act of 2004 (Act) was signed into law on
March 2, 2004.1 Under Section 211 of this legislation, certain non-citizens must meet
additional requirements to be fully or currently insured and to establish entitlement to
benefits based on the non-citizen’s earnings. This law applies to Title II benefits and
Medicare based on End-Stage Renal Disease (ESRD).

Under Section 211, a non-citizen whose Social Security number (SSN) was originally
assigned on or after January 1, 2004, must meet one of the following additional
requirements to be fully or currently insured and in order to establish entitlement to any
Title II benefit or ESRD Medicare based on the non-citizen’s earnings:

•      The alien worker must have been issued a SSN for work purposes at any time on or
       after January 1, 2004; or
•      The alien worker must have been admitted to the United States at any time as a
       nonimmigrant visitor for business (B-1) or as an alien crewman (D-1 or D-2).2

EXAMPLES OF NEW PROVISIONS

The Social Security Administration’s (SSA) instructions to employees provide a number
of examples to clarify the necessary requirements.3 We have highlighted a few below to
provide additional context to this issue.

First Example:

Catherine, age 18, entered the United States as a nonimmigrant on February 14, 2000.
She was a legal alien not allowed to work. While in the United States, Catherine
applied for a driver’s license from the State of Pennsylvania on April 3, 2000. At that
time, the State of Pennsylvania required a person to have a SSN to issue a driver’s
license. To meet the State’s requirement, she applied for a SSN on April 5, 2000.
SSA’s enumeration procedures in place at the time allowed for the assignment of a SSN
and issuance of a SSN card for nonwork purposes to an alien who applied for a driver’s
license from a State that required a SSN for driver’s licenses. In keeping with this

1
    See Pub. L. No. 108-203 § 211.

2
 SSA, Program Operations Manual System (POMS), RS 00301.102: Additional Requirements for Alien
Workers—Social Security Protection Act of 2004.
3
    SSA, POMS, RS 00301.102(F).


Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)          B-1
policy, SSA assigned her a SSN and issued her a SSN card for nonwork purposes on
June 12, 2000.4

Even though she was not authorized to work in the United States, Catherine began to
work in this country without authorization from the Department of Homeland Security
(DHS). Her wages were covered for Social Security purposes. Catherine’s
nonimmigrant status expired on August 13, 2000. She remained in the United States as
an undocumented alien and continued to work without DHS authorization. On
April 15, 2004, Catherine became disabled. She filed for Title II disability benefits on
June 21, 2004.

The Act and Insured Status: Since Catherine’s SSN was first assigned before
January 1, 2004, she is exempt from the requirements of Section 211 of the Act. This is
true even though she is an undocumented alien who is not allowed to work in the United
States. Based on her covered earnings, Catherine met special insured status for
disabled workers under age 31.

Lawful Presence: Catherine’s disability benefits must be suspended since she is not
lawfully present in the United States.5

Second Example:

Yelena entered the United States as a tourist on April 13, 1993. Her tourist
nonimmigrant status expired October 12, 1993; but she stayed in the United States after
that date without permission from DHS. Thus, after October 12, 1993, Yelena is in the
United States as an undocumented alien. While in the United States, she had a
daughter, Camille, who is a U.S. citizen by birth. Yelena worked without authorization
from the DHS under Camille’s SSN for 10 years.

Yelena became disabled on November 2, 2003. She filed for Title II disability benefits
for herself and child’s benefits for Camille on November 13, 2003. Yelena can be
entitled to disability benefits based on primary evidence of wages, resolution of the
scrambled earnings,6 and evidence that she met all factors of entitlement, including
disability insured status. Section 205(c)(2)(F) of the Social Security Act requires a
person to have a SSN as a condition for receipt of Title II benefits. If no such number
has been assigned, the claimant must apply for a SSN.



4
  SSA changed this policy on October 27, 2003. The need of an SSN to obtain a driver’s license is no
longer a valid reason for assigning a SSN/issuing a SSN card for nonwork purposes. See SSA, POMS,
RM 00203.510: Alien without Work Authorization - Nonwork Need for an SSN.
5
    SSA, POMS, RS 00204.010: Lawful Presence Payment Provisions.
6
  “Scrambled earnings” can occur when (a) one person intentionally worked under another person’s SSN
(b) earnings for one individual are incorrectly reported (c) a Numberholder and spouse file a joint tax
return and all of their earnings are reported under one spouse’s SSN.

Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)                 B-2
SSA assigned a SSN for nonwork purposes to Yelena on December 31, 2003 since
(1) she was found eligible for a federally funded benefit (Title II disability benefit) and
(2) having a SSN is a requirement for receipt of that benefit. Since Yelena is entitled to
disability benefits, Camille can be entitled to child’s benefits based on Yelena’s earnings
record.

The Act and Insured Status: Since Yelena’s SSN was assigned before
January 1, 2004, she does not have to meet one of the insured status requirements in
Section 211 of the Act to establish entitlement for herself or Camille.

Lawful Presence: Since Yelena is an alien who filed for benefits on or after
December 1, 1996, she must meet the lawful presence requirement7 to receive payment
of the disability benefit to which she is entitled. Because Yelena is not in any
immigration status that is considered lawfully present, her disability benefits must be
suspended. Her daughter’s benefits are not suspended since she is a U.S. citizen.




7
    SSA, POMS, RS 00204.010.

Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)     B-3
                                                                                   Appendix C

Scope and Methodology
To accomplish our objective, we:

    •   Reviewed the Social Security Administration’s (SSA) policies and procedures
        regarding the enumeration process.

    •   Reviewed prior Office of the Inspector General audit reports related to
        unauthorized employment, nonwork Social Security numbers, non-citizen
        enumeration, and Social Security benefits paid to non-citizens.

    •   Selected a random sample of 100 sample cases from a population of 1,382
        cases where Numberholders were enumerated in Calendar Year 2000 and had
        earnings posted to the Master Earnings File (MEF)1 Tax Year 1999 and earlier.
        The population was extracted from one segment2 of the Numident (see Appendix
        D for more details on the sampling methodology).

    •   For the individuals identified in our sample, we obtained copies of their Numident
        Files, MEF records, and Applications for a Social Security Card (Form SS-5).

    •   Verified the non-citizens work authorization status with the Department of
        Homeland Security (DHS). We verified the Alien registration number through
        DHS’ Alien Status Verification Index (ASVI) database. Additionally, we reviewed
        records from DHS’ Central Index System to manually verify those records where
        ASVI displayed exceptions or the Alien registration number was not visible on the
        Form SS-5s. We did not conduct an independent assessment of the reliability of
        DHS’ records.

    •   Reviewed the Master Beneficiary Records and Supplemental Security Records to
        determine whether the Numberholders included in our sample were receiving
        Social Security benefits.

    •   Interviewed DHS and SSA personnel to obtain their views on the Agency’s
        policies, procedures, and practices and to resolve discrepancies.



1
 The MEF contains all earnings data reported by employers and self-employed individuals. This data is
used to calculate the Social Security benefits due an individual with an earnings record.
2
 A segment represents one-twentieth of the Numident files. The Numident files are separated into
20 segments based on the last 2 digits of the Social Security number. Since these last digits are not
specific to a region or period of issuance, each segment should be representative of the entire file.

Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)                     C-1
We tested the SSN data for accuracy and completeness and determined it to be
sufficiently reliable to accomplish our objectives. The SSA entity audited was Office of
Earnings, Enumeration and Administrative Systems under the Deputy Commissioner of
Systems. We conducted our audit between September 2003 and November 2004 in
Philadelphia, Pennsylvania. Our audit was conducted in accordance with generally
accepted government auditing standards.




Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)   C-2
                                                                                    Appendix D

Sampling Methodology, Results and Projections
We obtained a data extract from the Social Security Administration’s (SSA) Numident
File and Master Earnings File (MEF). We performed a two part data extraction: (1) one
segment1 of the Numident consisting of all newly issued Social Security numbers (SSN)
in Calendar Year (CY) 2000 and (2) earnings records from the MEF for those SSNs that
had earnings posted for Tax Year (TY) 1999 or earlier. Our extract included both wages
and self-employment income for the Numberholders. The data extract consisted of
1,382 records from 1 segment of the Numident where individuals who were enumerated
in CY 2000 and also had earnings posted to their MEF records for TY 1999 and earlier.
For all 20 segments of the Numident file, we estimate that there are 27,640 citizens and
non-citizens enumerated in CY 2000 with earnings posted to their MEF records in
TY 1999 and earlier.

From the 1,382 SSNs, we randomly selected a sample size of 100 cases from
1 segment of the Numident. Based on our sample results, we estimate the following:

    •   The 91 non-citizens in our sample represent approximately 25,160 (1,258
        projected cases of unauthorized work multiplied by 20 segments of the Numident
        file) non-citizens who were enumerated in CY 2000 and had wages posted to
        their earnings record for prior years.

    •   The 85 non-citizens who were not authorized to work in the U.S. economy
        represent approximately 23,500 (1,175 projected cases of unauthorized work
        multiplied by 20 segments of the Numident file) potential violations of immigration
        laws prior to SSA’s enumeration of these non-citizens in CY 2000.

    •   The 60 non-citizens, who were not authorized to work and committed some form
        of SSN misuse, represent approximately 16,580 (829 projected cases of potential
        SSN misuse multiplied by 20 segments of the Numident file) potential SSN
        misuse cases related to non-citizens who are unauthorized to work and
        enumerated in CY 2000.

    •   The 3 non-citizens who were authorized to work and committed SSN misuse
        represent approximately 820 (41 projected cases of potential SSN misuse
        multiplied by 20 segments of the Numident file) potential SSN misuse cases
        related to non-citizens authorized to work and enumerated in CY 2000.



1
 A segment represents one-twentieth of the Numident files. The Numident files are separated into 20
segments based on the last 2 digits of the SSN. Since these last digits are not specific to a region or
period of issuance, each segment should be representative of the entire file.


Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)                       D-1
The chart below provides a detailed breakdown of the results of our sample along with
the attribute projections.


                         Sample Results and Estimates
                                    Attribute Estimate

Population size in items (one segment of Numident file)                                1,382

Population size in items (all 20 segments of the Numident file)                       27,640

Sample size                                                                             100
                   Attribute Estimate – Non-Citizens
Sample cases – number of non-citizens identified                                         91

Projection – number of non-citizens identified in our population                       1,258

Projection lower limit                                                                 1,175

Projection upper limit                                                                 1,315
Estimate – Number of non-citizens identified within the entire
                                                                                      25,160
Numident file (records in 1 segment x 20 segments)
             Attribute Estimate – Work Authorization
Sample cases – number of non-citizens unauthorized to work                               85

Projection – number of non-citizens unauthorized to work                               1,175

Projection lower limit                                                                 1,079

Projection upper limit                                                                 1,249
Estimate – Number of non-citizens unauthorized to work within the
                                                                                      23,500
entire Numident file (records in 1 segment x 20 segments)




Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)            D-2
             Sample Results and Estimates (Continued)
      Attribute Estimate – Misuse and No Work Authorization
Sample cases – number of non-citizens who potentially used a SSN
                                                                                         60
and were not authorized to work
Projection – number of individuals who potentially misused a SSN                        829
Projection lower limit                                                                  713
Projection upper limit                                                                  940
Estimate – Number of unauthorized non-citizens who potentially
misused a SSN within the entire Numident file (records in 1                           16,580
segment x 20 segments)
        Attribute Estimate – Misuse and Work Authorization
Sample cases – number of non-citizens who potentially used a SSN
                                                                                          3
and were authorized to work
Projection – number of individuals who potentially misused a SSN                         41
Projection lower limit                                                                   11
Projection upper limit                                                                  103
Estimate – Number of authorized non-citizens who potentially
misused a SSN within the entire Numident file (records in 1                             820
segment x 20 segments)
We made all projections at the 90-percent confidence level.




Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)            D-3
                                                                           Appendix E

Enumeration of Non-Citizens
In Fiscal Year 2004, the Social Security Administration (SSA) issued over 17.5 million
original and replacement Social Security number (SSN) cards to citizens and non-
citizens. When SSA assigns a SSN or issues a Social Security card, it independently
verifies the authenticity of the United States birth records for applicants age 1 and over,
immigration records, and other identification documents the applicant presented to
ensure the integrity of the process.

How SSA Assigns Original SSNs

When an individual applies for an original SSN, he or she must first complete, sign, and
submit a Form SS-5, Application for a Social Security Card, to a SSA field office (FO).
SSA requires the applicant to provide acceptable documentary evidence of (1) age,
(2) identity, and (3) U.S. citizenship or lawful alien status. Upon submission, the FO
employee enters applicant information and a description of the evidence presented into
the Modernized Enumeration System (MES).

If, after reviewing the application and supporting evidentiary documentation and
independently verifying the documents with the issuing Agency, the FO employee
believes the documents and information are valid, he or she certifies the application for
overnight validation. Once entered and certified in MES, the SSN application
undergoes automated edits. For example, SSA's programs compare the applicant's
name and date of birth with existing SSN records to ensure the Agency has not
previously assigned a SSN to the individual. If the application passes all of these edits,
MES issues a SSN card.

Evidentiary Documents Submitted

Evidence of Age: To verify a U.S. citizen's age, SSA requests a birth certificate issued
by State or local vital statistics agencies. The U.S. birth certificate needs to be
established before the applicant reached 5 years of age. Common examples of
documents used to establish a non-citizen's age are a foreign birth certificate, passport,
or Department of Homeland Security (DHS) documents.

Evidence of Identity: An identity document submitted as evidence must be recently
issued and provide information so FO personnel can compare its contents with
Form SS-5 data and/or with the applicant's physical appearance. Acceptable identity
documents are drivers' licenses, passports, school identification cards, marriage or
divorce certificates, or military records. For foreign-born applicants, SSA accepts as
evidence of identity a DHS document submitted as evidence of age only if the applicant
has no other document of probative value for identity and is a refugee, parolee, or
asylum applicant.


Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)      E-1
Evidence of Work Authorized or Lawful Alien Status: Applicants who allege a
foreign place of birth and/or who are not U.S. citizens must submit evidence supporting
either lawful alien status and/or DHS-granted work authorization. DHS issues
numerous documents that indicate the status and class of aliens. For example, the
Form I-551, Permanent Resident Card, establishes the alien as lawfully admitted for
permanent residence, which is evidence of work authorization.

Verification of Evidentiary Documentation with DHS

SSA has a number of electronic and paper interfaces with DHS to verify evidentiary
documents provided during the application process. The use of a particular DHS
process relates to whether an individual is seeking asylum or other nonimmigrant
category, or is a refugee, permanent resident alien, or parolee. SSA's policies and
procedures require that FO staff verify non-citizen evidentiary documentation through
visual inspection, including use of a black light where appropriate, and with DHS
through on-line or manual verification. Verification of evidentiary documentation with
DHS is mandated in all non-citizen cases.

Primary Verification Interfaces

Systematic Alien Verification for Entitlements (SAVE): The SAVE program provides
a method of document verification within an automated environment. The Alien Status
Verification Index (ASVI) database, included as part of SAVE, contains certain
biographic information and current status on over 25 million aliens. Each FO must
verify immigration documents submitted via the ASVI system. With this database, FO
staff can enter an alien's registration number or admission number and determine
whether the information alleged by the applicant is valid. If ASVI cannot verify the
document, a manual verification is required using the additional processes described
next.

Direct DHS Verification: A Form G-845, Document Verification Request, is part of the
manual verification process required by SAVE. This method is used to validate alien
documentation after primary verification, when appropriate, or in those situations when
verification through SAVE is not applicable. Procedures instruct DHS to check other
data sources and respond to SSA within 20 days of receipt.

Executive Office for Immigration Review (EOIR): The Department of Justice's EOIR
provides a status telephone line that SSA's FO personnel can use to determine whether
an applicant for a SSN has been granted asylum or there is an appeal pending on the
particular case. As of April 2001, DHS considers aliens granted asylum to have
permanent employment authorization and requests that SSA treat them as permanent
resident aliens for enumeration purposes.




Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)      E-2
Los Angeles Immigration Status Verification Unit (LOSISV): A new procedure was
implemented on January 5, 2004, to verify immigration status for exchange visitors and
foreign students when the individual's data cannot be verified through SAVE. Additional
documents, such as a Form I-20, Certificate of Eligibility for Nonimmigrant Student
Status, completed by the school, and school letters or certification of employment, when
the student is authorized to work, are needed if the person has been in the United
States for at least 10 days and no on-line SAVE data is available. Verification of the
documents must be requested through the Los Angeles Immigration Status Verification
Unit (LOSISV).

To perform this verification, a fax cover sheet along with a completed Form G-845 and
appropriate documents (such as Form I-20), are either faxed or sent via express mail
service (as appropriate) to LOSISV. This will verify the exchange visitor or foreign
student's status when the person has been in the United States for at least 10 days and
no on-line SAVE data is available. Procedures instruct LOSISV to respond to SSA via
fax within 5 business days from the date sent.




Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)   E-3
                                                                            Appendix F
Country of Birth for Sample Cases
The 100 Numberholders included in our sample were born in 29 different countries
including the United States. Most of the Numberholders were born in either Mexico or
Honduras.

Number of Countries                Country of Birth             Number of Sample Cases
             1            Mexico                                               35
             2            Honduras                                             14
             3            Colombia                                              3
             4            Haiti                                                 3
             5            Canada                                                3
             6            Ecuador                                               3
             7            El Salvador                                           3
             8            Egypt                                                 2
             9            Nigeria                                               2
            10            Peru                                                  2
            11            Poland                                                2
            12            Trinidad                                              2
            13            Nicaragua                                             2
            14            Brazil                                                1
            15            British Honduras                                      1
            16            China                                                 1
            17            Czech Republic                                        1
            18            Denmark                                               1
            19            Germany                                               1
            20            Guyana                                                1
            21            Jamaica                                               1
            22            Liberia                                               1
            23            Lithuania                                             1
            24            Malaysia                                              1
            25            South Korea                                           1
            26            St. Vincent and Grenadines                            1
            27            Suriname                                              1
            28            United Kingdom                                        1
                                               Sub-total:                      91
            29            United States                                         7
                          Naturalized (Mexico and Columbia)                     2
                                               Sub-Total:                       9
                                                   Total:                     100


Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)
                                                                           Appendix G

Agency Comments




Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)
                                         SOCIAL SECURITY
MEMORANDUM


Date:       July 15, 2005                                                        Refer To: S1J-3

To:         Patrick P. O'Carroll, Jr.
            Inspector General

From:       Larry W. Dye        /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, "Reported Earnings Prior to the Issuance of
            a Social Security Number" (A-03-04-14037)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




           Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)         G-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
"REPORTED EARNINGS PRIOR TO THE ISSUANCE OF A SOCIAL SECURITY
NUMBER" (A-03-04-14037)


Thank you for the opportunity to review and comment on the draft report. We appreciate your
acknowledgement of the steps we have taken on prior audit recommendations to:
1) work with the Department of Homeland Security (DHS) to determine what information would
be most beneficial to meet organizational goals and how to establish compatibility with their data
files; and 2) reemphasize to field office personnel the importance of following all policies and
procedures when enumerating individuals. As we continue to look for ways to strengthen our
policies, we understand that a cooperative partnership with other agencies will assist in
improving the enumeration process. Our responses to the specific recommendations and some
technical comments are provided below.

Recommendation 1

The Social Security Administration (SSA) should discuss these potential violations of
immigration laws with DHS officials to ensure these officials are aware of SSA’s policies
regarding the posting of non-citizens’ earnings, regardless of the non-citizens’ authorization to
work in the U.S. economy. This will provide DHS with additional background information
which could assist them in performing their mission.

Response

We agree. Each year SSA provides DHS with the names and addresses of the aliens, the names
and addresses of the individuals reporting the earnings, and the amount of earnings for all
individuals who have earnings recorded to a Social Security number (SSN) which we are aware
was assigned for nonwork purposes. We believe this information is sufficient to enable DHS to
investigate potential violations.

Recommendation 2

SSA should review and correct, as appropriate, the earnings records from our sample cases
where an individual had more than one SSN and wages still need to be transferred to the
appropriate account.

Response

We agree. However, earnings for individuals with more than one SSN are not transferred, but
are cross-referred to the other SSN. We have received the list of SSNs for the cases cited in this
report and will take any appropriate corrective action.




Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)             G-2
Recommendation 3

SSA should verify with the DHS and correct, as appropriate, the Numident records from our
sample cases where the citizenship, work authorization, and other identifying information were
inconsistent between SSA’s and DHS’ records.

Response

We agree. The Numident records should be corrected and coordination between the agencies as
needed. However, the Numident record reflects the identifying information, citizenship and/or
work authorization status at the time the application for an SSN was processed. A subsequent
change in citizenship or work authorization status is only added to the Numident when an
application for a replacement card is processed. A resolution of the discrepant information
between DHS and SSA would require more than a simple verification. As stated above, we have
initiated all appropriate corrective actions on the list of SSNs provided by OIG.


[SSA also provided technical comments which have been addressed, where
appropriate, in this report.]




Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)         G-3
                                                                           Appendix H

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Walter Bayer, Director, Philadelphia Audit Division, (215) 597-4080

   Cylinda McCloud-Keal, Audit Manager, (215) 597-0572

Acknowledgments
In addition to those named above:

   Walter Mingo, Auditor-in-Charge

   Richard Devers, Information Technology Specialist

   Brennan Kraje, Statistician

   Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-03-04-14037.




Reported Earnings Prior to the Issuance of a Social Security Number (A-03-04-14037)
                            DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
